OIG Investigative Reports, Owner of Technical Training School Admits Defrauding Department of Education and Labor
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release
New Jersey, April 10, 2006
U.S. Department of Justice
U.S. Attorney, District of New Jersey
970 Broad Street, Seventh Floor
Newark, New Jersey 07102  Christopher J. Christie, U.S.
Attorney Donna A. Gallucio, Assistant U.S. Attorney
973-645-2786
Public Affairs Office Michael Drewniak, PAO
973-645-2888
Owner of Technical Training School Admits Defrauding
Department of Education and Labor
NEWARK - The owner of Merit Technical Institute, a technical
school formerly located in Newark, pleaded guilty today to a federal fraud charge,
admitting that he fraudulently obtained approximately $392,000 from the U.S.
Departments of Education and Labor, U.S. Attorney Christopher J. Christie announced.
Victor Mungai Kamunge, 53, of Newark, pleaded guilty to a one-count Information
charging him with embezzling from the United States, according to Assistant
U.S. Attorney Donna Gallucio.
U.S. District Judge Katharine S. Hayden scheduled sentencing for July 26. Kamunge
faces a maximum penalty of 10 years in prison a $250,000 fine and an order of
restitution.
Kamunge admitted that from October 2001 to October 2003, as the president and
owner of Merit Technical Institute, he knowingly applied for and received educational
and training benefits of about $392,000 for students who were unqualified and
programs that were ineligible.
The school, formerly located on Commerce Street in Newark, trains students for
jobs in the medical and computer software fields, according to Kamunge. The
school received funds from the U.S. Department of Labor job-training program
called the Workforce Investment Act, and the funds were distributed through
the Newark Mayor’s Office of Employment and Training, as well as the Essex County
Economic Development Corp.
The school is not located in Jersey City.
Merit also received funds from the U.S. Department of Education’s Federal Family
Education Program (FFEL).
Kamunge admitted that between October 2001 and October 2003, he submitted or
had others submit false student transcripts and attendance records to qualify
for Department of Labor funds. In doing so, Kamunge fraudulently received about
$182,700 from the Department of Labor program.
Kamunge also admitted that, during the same period, he fraudulently received
approximately $209,700 in Department of Education FFEL funds on behalf of students
who were enrolled in courses that were ineligible for funding. To conceal the
fraud, Kamunge admitted that he submitted false documents, including transcripts
and attendance reports, to give the false impression that the students were
enrolled in eligible programs.
Kamunge remains free on a $100,000 unsecured bond, pending sentencing.
Under an Information, a defendant waives the right to have his case presented
to a federal grand jury and, instead, pleads guilty to charges presented by
the government.
In determining an actual sentence, Judge Hayden will consult the advisory U.S.
Sentencing Guidelines, which provide appropriate sentencing ranges that take
into account the severity and characteristics of the offense, the defendant's
criminal history, if any, and other factors. The judge, however, is not bound
by those guidelines in determining a sentence.
Parole has been abolished in the federal system. Defendants who are given custodial
terms must serve nearly all that time.
Christie credited Special Agents of the Department of Education, Office of
Inspector General, under the direction of Gary E. Mathison, Special Agent in
Charge, Northeast area; and Special Agents of the Department of Labor Office
of Inspector General, under the direction of Inspector General Gordon S. Heddell,
with developing the case against Kamunge.
The Government is represented by Assistant U.S. Attorney Gallucio, of the U.S.
Attorney's Commercial Crimes Unit in Newark.
-end-
Defense Attorney: Paul Brickfield, Esq., River Edge
Top
Printable view
Share this page
Last Modified: 04/13/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov